@OCKLE

2311 Douglas Street 7 E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B q te fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-423

BRIAN KIRK MALPASSO and MARYLAND STATE RIFLE AND
PISTOL ASSOCIATION, INC.,
Petitioners,

v.
WILLIAM M. PALLOZZI, in his official capacity as Maryland
Secretary of State Police,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF ALABAMA AND 20 OTHER STATES AS AMICI
CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
STEVE MARSHALL
Alabama Attorney General
Edmund G. LaCour Jr.*
Solicitor General
A. Barrett Bowdre
Deputy Solicitor General
OFFICE OF ALA. ATT’Y GEN.
501 Washington Avenue
Montgomery, AL 36130
(334) 353-2196
edmund.lacour@AlabamaAG.gov
*Counsel of Record

Counsel for Amici Curiae

Subscribed and sworn to before me this 18th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

onic  E Clit Qudiow-h, Chl

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39007
Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
(202) 389-5000

Counsel for Petitioners

SERVICE LIST

Julia Doyle Bernhardt

Office of the Attorney General
200 Saint Paul Place, 20th Floor
Baltimore, MD 21202
jbernhardt@oag.state.md.us
(410) 576-7291

Counsel for Respondent
